                                        SOCIAL SECURITY

MEMORANDUM

Date:      November 3, 2006                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Inspector General Statement on the Social Security Administration’s Major Management
           Challenges (A-02-07-17075)


           The Fiscal Year (FY) 2006 Inspector General Statement on the Social Security
           Administration’s Major Management Challenges is attached. As required by the
           Reports Consolidation Act of 2000, this report will be included in the Agency’s FY 2006
           Performance and Accountability Report. The performance information included in the
           report is based on FY 2006 data.

           If you would like to discuss this report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            Patrick P. O'Carroll, Jr.

           Attachment
                            SOCIAL SECURITY
                                   November 3, 2006


The Honorable Jo Anne B. Barnhart
Commissioner

Dear Ms. Barnhart:

In November 2000, the President signed the Reports Consolidation Act of 2000
(Pub. L. No. 106-531), which requires Inspectors General to provide a summary and
assessment of the most serious management and performance challenges facing
Federal agencies and the agencies’ progress in addressing them. This document
responds to the requirement to include this Statement in the Social Security
Administration’s Fiscal Year 2006 Performance and Accountability Report.

In November 2005, we identified six significant management issues facing the Social
Security Administration for Fiscal Year (FY) 2006.

   • Social Security Number                        • Internal Control Environment
     Protection                                      and Performance Measures
   • Management of the Disability                  • Systems Security and Critical
     Process                                         Infrastructure Protection
   • Improper Payments and                         • Service Delivery and Electronic
     Recovery of Overpayments                        Government

I congratulate you on the progress you have made during FY 2006 in addressing these
challenges. My office will continue to focus on these issues in the current FY. I look
forward to working with you to continue improving the Agency’s ability to address these
challenges and meet its mission efficiently and effectively. I am providing you with the
Office of the Inspector General’s assessment of these six management challenges.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General




              SOCIAL SECURITY ADMINISTRATION      BALTIMORE MD 21235-0001
 Inspector General Statement
             on the
Social Security Administration’s
Major Management Challenges




         November 2006
           A-02-07-17075
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                   Social Security Number Protection
In Fiscal Year (FY) 2006, the Social Security Administration (SSA) issued approximately
5.6 million original and 11.5 million replacement Social Security number (SSN) cards
and received approximately $620 billion in employment taxes related to earnings under
assigned SSNs. Protecting the SSN and properly posting the wages reported under
SSNs are critical to ensuring eligible individuals receive the full benefits due them.

To protect the integrity of the SSN, SSA employs effective front-end controls in its
enumeration process. We applaud the significant strides the Agency has made over the
past several years in providing greater protection for the SSN. Nevertheless,
incidences of SSN misuse continue to rise. To further strengthen the integrity of the
SSN, we believe SSA should continue to (1) encourage public and private entities to
limit use of the SSN as an individual identifier, (2) address identified weaknesses in its
information security environment to better safeguard SSNs, and (3) coordinate with
partner agencies to pursue any data sharing agreements that would increase data
integrity.

Maintaining the integrity of the SSN and Social Security programs also involves properly
posting the earnings reported under SSNs. Accurate earnings records are used to
determine both the eligibility for Social Security benefits and the amount of those
benefits. The Earnings Suspense File (ESF) is the Agency’s record of annual wage
reports for which wage earners’ names and SSNs fail to match SSA’s records. As of
October 2005, the ESF had accumulated approximately 255 million wage items for
Tax Years 1937 through 2003, representing about $520 billion in wages.

While SSA cannot control all of the factors associated with erroneous wage reports,
SSA can continue to improve wage reporting by educating employers on reporting
criteria, identifying and resolving employer reporting problems, and encouraging greater
use of the Agency’s SSN verification programs. SSA can also improve coordination
with other Federal agencies with separate, yet related, mandates. For example, the
Agency works with the Internal Revenue Service to achieve more accurate wage
reporting. In addition, as part of its worksite enforcement efforts, the Department of
Homeland Security (DHS) recently proposed a new rule (Safe-Harbor Procedures for
Employers Who Receive a No-Match Letter) that would require employers to take timely
action on SSA no-match letters to avoid liability under immigration laws.

Another area of concern related to SSN integrity is the use of nonwork SSNs by
noncitizens for unauthorized employment in the United States. SSA assigns nonwork
SSNs to noncitizens when (1) a Federal statute or regulation requires that noncitizens
provide an SSN to receive a federally funded benefit to which they have established an
entitlement or (2) a State or local law requires that noncitizens who are legally in the
United States provide an SSN to receive public assistance benefits to which they are
entitled and for which all other requirements have been met. SSA assigned these
individuals SSN cards with a “Not Valid for Employment” annotation. SSA also provides
information about earnings reported under a nonwork SSN to DHS as required by law.

IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                       1
Nonetheless, prior audits have noted several issues related to nonwork SSNs, including
the (1) type of evidence provided to obtain a nonwork SSN, (2) reliability of nonwork
SSN information in SSA’s records, (3) volume of wages reported under nonwork SSNs,
and (4) payment of benefits to noncitizens who qualified for their benefits while working
in the United States without proper authorization.

In March 2004, Congress placed new restrictions on the receipt of SSA benefits by
noncitizens who are not authorized to work in the United States. Under the Social
Security Protection Act (SSPA) of 2004 (Pub. L. No. 108-203), payment of Title II
benefits based on the earnings of any noncitizen is precluded unless the noncitizen was
assigned an SSN indicating authorization to work in the United States, was admitted to
the U.S. with a B-1 visa (for business purposes), or was admitted to the U.S. with a
D visa ( as a crewman). SSA’s implementation of this new law will require increased
coordination with DHS to ensure SSA has correct work status information.

SSA Has Taken Steps to Address this Challenge
Over the past 5 years, SSA implemented numerous improvements to its enumeration
process. For example, in March 2005, SSA implemented mandatory use of the SS-5
Assistant to improve controls over processing SSN applications. The SS-5 Assistant, a
software program that interfaces with the Modernized Enumeration System (MES),
assists field office personnel in gathering and recording required SSN application
information.

Additionally, SSA has significantly decreased the number of nonwork SSNs it assigns to
noncitizens as a result of a change in regulations and field office compliance with
procedures to ensure that nonwork SSNs are issued only to qualified individuals.

During FY 2006, SSA established another Enumeration Card Center in Queens,
New York that focuses exclusively on assigning SSNs and issuing SSN cards—and it
has plans to open several more as resources permit. In addition, during FY 2006, the
Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004
(Pub. L. No. 108-458) mandated several enhancements designed to protect the integrity
of the SSN. The enhancements include (1) restricting the issuance of multiple
replacement SSN cards to 3 per year and 10 in a lifetime, (2) requiring independent
verification of any birth record submitted by an individual to establish eligibility for an
SSN, other than for purposes of enumeration at birth, (3) consulting with DHS and other
agencies to further improve the security of SSNs and cards, and (4) strengthening the
standards and requirements for citizenship and identity documents presented with SSN
applications to establish eligibility for an original or replacement SSN card.

SSA has also taken steps to reduce the size and growth of the ESF. In June 2005, the
Agency expanded its voluntary Social Security Number Verification Service (SSNVS) to
all interested employers nationwide. SSNVS allows employers to verify the names and
SSNs of employees before reporting their wages to SSA. During 2005, SSNVS
processed over 25.7 million verifications for over 12,000 employers.


IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                         2
SSA also supports DHS in administering the Basic Pilot program, which verifies the
names and SSNs of employees as well as their authorization to work in the
United States. In December 2004, the Basic Pilot program was made available to
employers nationwide. During 2005, the Basic Pilot processed about 980,000
verifications for approximately 3,700 employers.

The Agency continues to modify the information it shares with employers. Under
IRTPA, SSA is required to add both death and fraud indicators to the SSN verification
systems for employers, State agencies issuing drivers’ licenses and identity cards, and
other verification routines, as determined appropriate by the Commissioner of Social
Security. SSA added death indicators to those verification routines used by employers
and State agencies on March 6, 2006 and is working to add fraud indicators by
December 2007.




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                         3
                 Management of the Disability Process
SSA needs to continue to improve critical parts of the disability process, such as making
disability decisions and safeguarding the integrity of its disability programs.
Modernizing Federal Disability Programs has been on the Government Accountability
Office’s high-risk list since 2003 due, in part, to outmoded concepts of disability, lengthy
processing times, and inconsistencies in disability decisions across adjudicative levels
and locations. The Federal Disability Program includes SSA’s disability programs, as
well as the Veterans Administration’s disability program.

The timeliness and quality of the Agency’s disability adjudication processes need to be
improved. For example, the average processing time for the Office of Disability
Adjudication and Review (ODAR), responsible for SSA’s hearings and appeals
programs, continues to increase each fiscal year—from 293 days in Fiscal Year
(FY) 2001 to 483 days in FY 2006. In our May 2006 report on Supplemental Security
Income (SSI) payments made during the appeals process, we found that financial
performance and citizen satisfaction with the SSI program could be greatly increased if
SSA would establish a business process to allow more timely decisions on medical
cessation appeals.

Additionally, ODAR’s pending workload continues to steadily increase. As of
September 2006, the pending workload was 715,568 cases—up from 392,387 cases in
FY 2001. In August 2006, we reported on case management procedures at one ODAR
hearing office and found that, based on the productivity goal SSA established for that
hearing office, less than half of the Administrative Law Judges (ALJ) issued the
expected number of decisions during the year. Given the significant pending workload
ODAR currently faces, we reported that SSA should identify a reasonable production
goal for ALJs, consistent with independent decision-making processes, and establish a
plan to assist ALJs in meeting the production goal.

As the hearing workload has increased, ODAR developed new ways of doing business.
One improvement ODAR has made is to replace its aging analog cassette tape
recorders with digital recorders. In August 2006, the Office of the Inspector General
(OIG) issued a report on digital recording equipment. OIG found that while the
equipment was an improvement over the previous technology, the weight of the travel
unit recording equipment created physical hardships. ODAR also needs to enhance the
security of sensitive information stored on the laptops.

Another new system ODAR is using to improve the disability process is its Case
Processing and Management System (CPMS). CPMS was designed to process
hearings and produce management information. In June 2006, OIG issued a report on
CPMS and workload management. OIG found that ODAR managers need to make
better use of the management reports and take action on hearings or appeals that were
moving too slowly through the process.



IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                          4
Key risk factors in the disability program are individuals who feign or exaggerate
symptoms to become eligible for disability benefits or who, after becoming eligible to
receive benefits, knowingly fail to report medical improvements or work activity. In our
April 2006 report Overpayments in the Social Security Administration’s Disability
Programs, we estimated that SSA prevented about $7 billion in payments from being
issued to ineligible beneficiaries through its normal business processes, such as
continuing disability reviews (CDR). However, we also estimated that SSA paid over
$2 billion to ineligible beneficiaries due to unreported changes in their circumstances
that impacted benefit payments, such as returning to work or improvements in their
medical condition. We concluded that SSA’s disability programs could be strengthened
if the Agency conducted more CDRs to determine whether beneficiaries continue to be
eligible for payments. However, in January 2006, SSA decreased the number of CDRs
it planned to conduct in FY 2006 due to budget constraints—resulting in about a one-
third reduction from the previous year.

SSA Has Taken Steps to Address this Challenge

In August 2006, SSA implemented the Disability Service Improvement (DSI) initiative in
the Boston region—making significant changes in the Agency’s disability programs,
such as:

   •   A Quick Disability Determination process for individuals who are obviously
       disabled;
   •   A Medical-Vocational Expert System to enhance the quality and availability of the
       expertise needed to make accurate and timely decisions at all adjudicative levels;
   •   A Federal Reviewing Official to review initial level decisions upon the request of
       the claimant;
   •   Closing the record after the ALJ issues a decision—allowing for the consideration
       of new and material evidence only under very limited circumstances; and
   •   A Decision Review Board to review ALJ decisions and policies and procedures
       throughout the disability adjudication process.

SSA is also transitioning to the electronic disability folder which allows staff to
electronically collect and transmit information related to disability claims between all
offices handling disability folders. The Agency expects all offices to be processing
disability claims electronically by March 2007, which should reduce processing delays
caused by organizing, mailing, locating, and reconstructing paper folders. ODAR has
also implemented Video Hearings, which allow hearings to be held quicker and
minimize the need for extensive travel by ALJs, claimants, and medical or vocational
experts.




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                          5
We have also worked with the Agency to safeguard the integrity of its disability
programs with the Cooperative Disability Investigations (CDI) program. Under the CDI
program, our Office of Investigations and SSA staff obtain evidence to resolve questions
of fraud in disability claims. Since the program’s inception in FY 1998 through
September 2006, the 19 CDI units, operating in 17 States, have been responsible for
over $684 million in projected savings to SSA’s disability programs and over
$409 million in projected savings to non-SSA programs.




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                     6
      Improper Payments and Recovery of Overpayments
Improper payments are defined as any payment that should not have been made or that
was an incorrect amount. Examples of improper payments include inadvertent errors,
payments for unsupported or inadequately supported claims, or payments to ineligible
beneficiaries. Furthermore, the risk of improper payments increases in programs with a
significant volume of transactions, complex criteria for computing payments, and an
emphasis on expediting payments.

The President and Congress have expressed interest in measuring the universe of
improper payments in the Government. In August 2001, the Office of Management and
Budget (OMB) published the President’s Management Agenda (PMA), which included a
government-wide initiative for improving financial performance, including reducing
improper payments. In November 2002, the Improper Payments Information Act of
2002 (Pub. L. No. 107-300) was enacted, and OMB issued guidance in May 2003 and
August 2006 on implementing this law. Under this Act, SSA must estimate its annual
amount of improper payments and report this information in the Agency's annual
Performance and Accountability Report. Additionally, Federal agencies, such as SSA,
should take all necessary steps to ensure the accuracy and integrity of Federal
payments.

SSA and OIG have discussed issues such as detected versus undetected improper
payments and avoidable versus unavoidable overpayments that are outside the
Agency's control and are a cost of doing business. OMB issued specific guidance to
SSA to only include avoidable overpayments in its improper payment estimate because
those payments can be reduced through changes in administrative actions.
Unavoidable overpayments that result from legal or policy requirements are not to be
included in SSA’s improper payment estimate.

SSA issues billions of dollars in benefit payments under the Old-Age, Survivors and
Disability Insurance (OASDI) and Supplemental Security Income (SSI) programs—and
some improper payments are unavoidable. In FY 2005, SSA issued about $558 billion
in benefit payments to about 52.8 million individuals. Since SSA is responsible for
issuing timely benefit payments for complex entitlement programs to millions of
individuals, even the slightest error in the overall process can result in millions of dollars
in over- or underpayments. In FY 2005, SSA reported that it detected over $4.2 billion
in overpayments. In FY 2006, SSA detected $4.7 billion in overpayments and collected
$2.3 billion. SSA also noted in its Performance and Accountability Report for FY 2005
that the Agency recovered over $2 billion in overpayments.

In February 2006, OMB issued a report Improving the Accuracy and Integrity of Federal
Payments stating that seven Federal programs—including SSA’s OASDI and SSI
programs—accounted for approximately 95 percent of the improper payments in
FY 2005. However, this report also noted that SSA is actively implementing sound
improper payment measurement and corrective action plans.



IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                            7
SSA Has Taken Steps to Address this Challenge

SSA has been working to improve its ability to prevent over- and underpayments by
obtaining beneficiary information from independent sources sooner and using
technology more effectively. In FY 2006 SSA implemented an initiative to improve
overpayment recovery controls. According to SSA, the purpose of this initiative was to
improve overpayment control, accounting and recovery on Title XVI program records
and provide more consistency in the way SSA manages debt recovery from Title XVI
debtors who are receiving SSI payments. SSA reported that this project resulted in
establishing recovery efforts on about $61 million in uncollected overpayments from
individuals receiving Title XVI benefits. Additionally, in FY 2005, SSA implemented
eWork—a new automated system to control and process work related CDRs—which
should strengthen SSA's ability to identify and prevent improper payments to disabled
beneficiaries. However, one of the challenges facing SSA is the need for adequate
funding for both medical and work-related CDRs. Although the Agency had special
funding for CDRs in FYs 1996 through 2002 and the Agency’s data shows that CDRs
save about $10 for every $1 spent to conduct them, the Agency has cut back on this
workload due to budget constraints imposed on the Agency. To address this, the
Agency requested special funding for CDRs in its FY 2007 budget request.

We will continue to work with SSA to identify and address improper payments in its
programs. For example, SSA took action to prevent and recover improper payments
based on several OIG reviews.

•   Working with us on an OIG audit of Individuals Receiving Benefits Under Multiple
    Social Security Numbers at the Same Address, SSA identified about $12.2 million in
    overpayments; and as of July 2006, about 11 percent of the funds had been
    recovered.
•   In another review—Benefits Paid to Dually Entitled Title II Beneficiaries—we found
    that, as of July 2006, SSA had recovered about 13 percent of the $2 million in
    overpayments identified for our sample cases. Additionally, the Agency was taking
    corrective action to address the estimated $37.6 million in payment errors related to
    this review.
•   In our review—Match of Veterans' Affairs Historical Death File Against the Social
    Security Administration's Benefit Rolls—we estimated $11.7 million in benefits was
    paid improperly after the individuals’ deaths. As of May 2006, SSA had recovered
    about 9 percent of the funds in our sample cases and the Agency’s efforts continue.

We have helped the Agency reduce improper payments to prisoners and improper SSI
payments to fugitive felons. However, our work has shown that improper payments—
such as those related to workers’ compensation—continue to occur. Furthermore, in
our April 2006 report Overpayments in the Social Security Administration’s Disability
Programs, we estimated that SSA had not detected about $3.2 billion in overpayments
for the period October 2003 through November 2005 as a result of conditions that
existed as of October 2003 or earlier. We also estimated that SSA paid about
$2.1 billion in benefits annually to potentially ineligible beneficiaries.


IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                        8
 Internal Control Environment and Performance Measures
Sound management of public programs includes both effective internal controls and
performance measurement. Internal control comprises the plans, methods, and
procedures used to meet missions, goals, and objectives. OMB’s Circular No. A-123,
Management’s Responsibility for Management Control, requires the Agency and its
managers to take systematic and proactive measures to develop and implement
appropriate, cost-effective internal control for results-oriented management. Similarly,
SSA management is responsible for determining through performance measurement
and systematic analysis if the programs it manages achieve intended objectives.

One of the main work processes SSA management is responsible for establishing
appropriate controls over is the development of disability claims under the Disability
Insurance (DI) and SSI programs. Disability determinations under DI and SSI are
performed by Disability Determination Services (DDS) in each State in accordance with
Federal regulations. Each DDS is responsible for determining claimants’ disabilities and
ensuring adequate evidence is available to support its determinations. SSA reimburses
the DDS for 100 percent of allowable expenditures up to its approved funding
authorization. In FY 2006, SSA allocated almost $1.8 billion to fund DDS operations.

From FY 2000 through September 2006, we conducted 47 DDS administrative cost
audits. In 26 of the 47 audits, we identified internal control weaknesses and over
$82 million that SSA reimbursed to the States that were not properly supported or could
have been put to better use. Nine of the 47 audits conducted were completed in
FY 2006. Five of these reports noted similar control weaknesses identified in DDS
audits in previous years and over $8 million of questioned costs and/or funds that could
be put to better use. We believe the large dollar amounts claimed by State DDSs and
the control issues we have identified warrant that this issue remains a major
management challenge.

Another area that requires sound management and effective internal controls is the
selection and oversight of contractors that assist the Agency in meeting its mission. In
FY 2006, SSA spent over $631 million on contracts. We reviewed four of SSA’s
contracts in FY 2006. We generally found that the costs claimed for services provided
by the contractors involved were reasonable and allowable. While we noted no major
concerns in the reviews conducted, we believe ensuring proper oversight and controls
over its contracts continues to be a major management challenge for SSA due to the
total dollar amounts awarded and risks associated with third parties delivering services
in fulfillment of a contract.

The Government Performance and Results Act (Pub. L. No. 103-62) and the PMA call
for the identification of high quality outcome measures that accurately monitor
programs’ performance and associated costs. Also, SSA managers need sound
information to monitor and evaluate performance. In FY 2006, we issued 9 audits that




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                          9
    addressed 21 of SSA’s performance measures. Six of the nine audits were based on
    work that began in FY 2005, with audit work continuing into FY 2006. The
    15 performance measures addressed in these 6 reports are listed below.

•     Percent of outstanding OASDI debt in a     •   Percent of outstanding SSI debt in a
      collection arrangement                         collection arrangement
•     Percent of people who do business          •   Percent of SSI aged claims processed by
      with SSA rating overall services as            the time the first payment is due or within
      "excellent," "very good," or "good"            14 days of the effective filing date
•     Number of appellate actions processed      •   SSI nondisability redeterminations
•     Number of SSA hearings cases               •   Retirement and Survivors Insurance
      processed per workyear                         claims processed
•     Number of SSA hearings pending             •   Periodic CDRs processed
•     Hearings decision accuracy rate            •   SSNs processed
•     Annual earnings items processed            •   Number of initial disability claims pending
•     Percent of SSNs issued that are free of
      critical error

    We concluded that the data used for 3 of the 15 measures were reliable and that the
    data used for 6 of them were unreliable. Additionally, we were unable to determine the
    reliability for another six measures.

    Three of the nine audits released in FY 2006 were based on work that began and was
    completed in FY 2006. The six performance measures addressed by these audits are
    listed below.

•     Enhance efforts to improve financial       •   Percent of SSI payments free of
      performance using Managerial Cost              preventable overpayments and
      Accountability System                          underpayments
•     Maintain zero outside infiltrations of     •   Improve workload information using
      SSA's programmatic mainframes                  Social Security Unified Measurement
                                                     System
•     Optimize the 800-number agent busy         •   Optimize the speed in answering
      rate                                           800-number calls

    We concluded that the data used for two of the six measures were reliable and that the
    data used for one of them was unreliable. Additionally, we were unable to determine
    the reliability for another two of the measures and we did not complete an analysis of
    data reliability on one measure since the calculation of the indicator was not based on
    computerized data.

    Generally, the data addressed in our FY 2006 audits determined to be unreliable was
    incomplete or the systems used to collect the data were not sufficiently secure to ensure
    its integrity. We were unable to determine data reliability when SSA had not retained
    the data used in its measurement processes, which prevented us from testing it. The
    challenge SSA faces in this area is ensuring that it has the reliable management
    information needed when making strategic and operational plans.

    IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                       10
SSA Has Taken Steps to Address this Challenge
SSA has taken steps to develop internal controls over its operations and contractor
performance and in developing sound performance data. SSA has generally agreed
with our recommendations that address internal control weaknesses associated with
DDSs and has taken the recommended steps to ensure that reimbursements provided
to DDSs are allowable and properly supported. Additionally, SSA is working to limit
access to its performance data to only those that have a need to work with it in an effort
to protect its integrity. Also, the Agency has worked with us to determine how to best
audit its performance data without significantly increasing its data storage costs. This
effort includes gaining real time access to SSA’s performance data, which allows us to
test the data as it is being created.




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                       11
   Systems Security and Critical Infrastructure Protection
Protecting the critical infrastructure of the United States is essential to the Nation’s
security, public health and safety, economic vitality, and way of life. Attacks on critical
infrastructure could significantly disrupt the functioning of Government and business
alike and produce cascading effects far beyond the targeted sectors and physical
location of the incident. Therefore, any disruptions in the operation of information
systems that are critical to the Nation’s infrastructure should be infrequent, manageable,
of minimal duration and result in the least damage possible. The Government must
make continuous efforts to secure information systems for critical infrastructures.

SSA’s information security challenge is to understand and mitigate system
vulnerabilities. Weaknesses in controls over access to its electronic information,
technical security configuration standards, suitability, and continuity of systems
operations had been identified. While many of these weaknesses have been resolved,
SSA needs to monitor these issues diligently to ensure that they do not reoccur.

Numerous incidents that occurred recently involving the compromise or loss of sensitive
personal information emphasizes the challenges the Government faces in the protection
of sensitive information entrusted to it. OMB recently issued three memoranda
addressing the protection of sensitive personally identifiable information within the
Government. OMB memorandum M-06-15 reemphasizes existing requirements,
including establishing employee rules of behavior, and administrative, technical, and
physical safeguards for the protection of personally identifiable information. OMB
memorandum M-06-15 also requires the agency’s Senior Official for Privacy to review
policies and procedures and take corrective actions to ensure the safeguarding of
personally identifiable information. OMB memorandum M-06-16 requires agencies to
tighten and reassure security controls when personally identifiable information is
removed from, or accessed from outside, the agency location. OMB memorandum
M-06-19 specifically requires agencies to report all incidents involving personally
identifiable information to US-CERT within 1 hour of discovery. SSA is taking
aggressive actions to meet these security challenges as part of the Federal Information
Security Management Act (FISMA) of 2002 (Pub. L. No. 107-347) process.

SSA Has Taken Steps to Address this Challenge
SSA continues to address significant information technology (IT) control issues. For
example, the Agency developed and implemented configuration standards for all major
operating system platforms and software components. SSA also began an extensive
monitoring process to ensure that the Agency’s over 100,000 servers and workstations
are in compliance with established system configuration standards. Further, SSA also
maintained Certifications and Accreditations for all 20 major systems, which were
substantially compliant with security standards. SSA has instituted access control
policies to ensure appropriate segregation of duties by limiting access to critical
information on a ‘need only’ basis.


IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                       12
These control policy enhancements were completed largely through the Standardized
Security Profile Project (SSPP). An employee’s profile is the primary element used to
control access to SSA’s databases. SSA needs to continue its efforts to fully implement
the policies that control access to sensitive records. Such efforts should include:

   •   The update and development of new configuration standards when appropriate;
   •   Strengthening its access control processes to ensure that the user profiles are
       adequately reviewed and tested;
   •   Continued monitoring of Agency’s devices for compliance with established
       configuration standards; and
   •   Continued work of the SSPP and the regular monitoring of accesses made to
       sensitive data.

SSA has implemented a variety of methods in which it protects its critical information
infrastructure and systems security. For example, SSA’s Critical Infrastructure
Protection workgroup continuously works to ensure Agency compliance with various
directives, such as Homeland Security Presidential Directives and FISMA. To provide
for the protection of the critical assets of the SSA National Computer Center, SSA has
initiated the Information Technology Operations Assurance (ITOA) project. The
objective of the ITOA project is to build a second, fully functional, co-processing data
center. SSA also routinely releases security advisories to its employees and has hired
outside contractors to provide expertise in this area.

SSA continues to improve its security program to better comply with FISMA and makes
strides towards reaching green in the PMA e-Government initiative. SSA has worked
closely with the OIG to meet FISMA requirements and has issued a revised version of
its Information System Security Handbook. SSA also:

   •   improved its automated tool to better track security weaknesses and help monitor
       their resolution;
   •   improved tracking of security training for SSA staff with significant security
       responsibilities; and
   •   conducted internal reviews to identify Information Technology infrastructure
       weaknesses.

To address its personally identifiable information protection needs, SSA is working to
resolve difficulties involving the encryption of mobile computers and devices and
removable media. SSA has issued memorandums to its staff emphasizing the
importance of protecting personally identifiable information. SSA is also revising its
policies and procedures for “incident reporting” to comply with current Federal
requirements.




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                        13
            Service Delivery and Electronic Government
One of SSA’s strategic goals is to deliver high-quality “citizen-centered” service. This
goal encompasses traditional and electronic services to applicants for benefits,
beneficiaries and the public. It includes services to and from States, other agencies,
third parties, employers, and other organizations, including financial institutions and
medical providers. This area includes the challenges of the Representative Payee
Process, Managing Human Capital and Electronic Government (e-Government).

SSA reports there are approximately 5.3 million representative payees who manage
$48 billion in annual benefits for 7 million beneficiaries. SSPA presents new challenges
for SSA’s Representative Payee Process. Most notably, SSA is required to conduct
periodic site reviews of representative payees. It also requires that SSA reissue
benefits to beneficiaries who were victims of misuse by organizational representative
payees or individual payees serving 15 or more beneficiaries. Further, SSPA provides
that benefits misused by a nongovernmental representative payee be treated as
overpayments to that representative payee, subject to overpayment recovery
authorities.

In FY 2006, we identified several problematic conditions during our reviews of the
Representative Payee Process. For example, we found that in some instances, child
beneficiaries in a foster care program had their benefit payments managed by
representative payees other than the foster care agency. We identified concurrently
entitled OASDI and SSI beneficiaries receiving both representative payee and direct
payments. Furthermore, we found SSA needs to improve its controls to ensure benefit
payments are not improperly suspended pending the selection of representative payees
and benefit payments are reinstated in a timely manner.

As of February 2005, the Government Accountability Office continued to include
strategic human capital management on its list of high-risk Federal programs and
operations. Further, Strategic Management of Human Capital is one of five
government-wide initiatives contained in the PMA. SSA is challenged to address
increasing workloads as the “baby boom” generation approaches its peak disability and
retirement years, at the same time SSA’s workforce is retiring. SSA projects that by
FY 2015, 54 percent of its employees will be eligible to retire. This “retirement wave”
will result in a loss of valuable skills, institutional knowledge and technical expertise that
will affect SSA’s ability to deliver quality service to the public.

The e-Government initiative of the PMA directs the use of technology to its fullest to
provide services and information that is citizen-centered. Specifically, e-Government
instructs SSA to help citizens find information and obtain services organized according
to their needs.




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                           14
SSA Has Taken Steps to Address this Challenge
SSA has taken several actions regarding the challenges of its representative payee
process that include:

   •   Providing an annual report to Congress on its representative payee site reviews
       and other reviews.
   •   Repaying approximately $2.5 million to about 2,100 beneficiaries for benefit
       misuse by representative payees.
   •   Initiating a study to determine how individual and organizational representative
       payees are using and managing payments they receive on behalf of beneficiaries
       in their care.

SSA needs to strengthen its oversight of the representative payee process that
concerns children in foster care. Prior work has identified children in long-term foster
care placement with representative payees who were not their foster care parents. As a
result, we are concerned about whether the benefit payments made to these payees
were used for the children’s food, shelter and clothing needs. We plan to do additional
work in this area to assist the Agency in ensuring that these payments are being
properly used for the benefit of the children.

Since June 30, 2004, SSA has consistently scored "green" in both “Current Status” and
“Progress in Implementing the President’s Management Agenda,” for Human Capital on
the Executive Branch Management Scorecard. The scorecard tracks how well the
departments and major agencies are executing the government-wide management
initiatives. In December 2005, SSA won the 2005 President’s Award for Management
Excellence for its performance and results in the Strategic Management of Human
Capital. SSA has developed and implemented a Human Capital Plan; competency-
based training for “mission critical” employees; and a national recruitment strategy to
bring the “best and brightest” individuals to the Agency. Furthermore, SSA performed
analyses of the retirement wave to develop 10-year projections on voluntary, early-out,
and disability retirements.

Within the next 5 years, SSA expects to provide cost-effective e-Government services
to citizens, businesses and other Government agencies. According to SSA, its
e-Government strategy is based on the deployment of high volume, high payoff
applications, for both the public and the Agency’s business partners. To meet
increasing public demands, SSA reports it has aggressively pursued a portfolio of
services that include on-line and voice-enabled telephone transactions to increase
opportunities for the public to conduct SSA business electronically in a secure
environment. As of June 30, 2006, SSA scored “green” in e-Government on the
Executive Branch Management Scorecard and “red” in e-Government for “Progress in
Implementing the President’s Management Agenda,” According to Agency officials,
SSA and OMB are discussing plans intended to improve the e-Government score for
“Progress in Implementing the President’s Management Agenda” on the Scorecard.



IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                    15
                                          Appendices
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)
                                                                     Appendix A

Acronyms

 ALJ              Administrative Law Judge
 CDI              Cooperative Disability Investigations
 CDR              Continuing Disability Review
 CPMS             Case Processing and Management System
 DDS              Disability Determination Services
 DHS              Department of Homeland Security
 DI               Disability Insurance
 DSI              Disability Service Improvement
 ESF              Earnings Suspense File
 FISMA            Federal Information Security Management Act
 FY               Fiscal Year
 IRTPA            Intelligence Reform and Terrorism Prevention Act
 IT               Information Technology
 ITOA             Information Technology Operations Assurance
 OASDI            Old-Age, Survivors and Disability Insurance
 ODAR             Office of Disability Adjudication and Review
 OIG              Office of the Inspector General
 OMB              Office of Management and Budget
 PAR              Performance and Accountability Report
 PMA              President’s Management Agenda
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number
 SSNVS            Social Security Number Verification Service
 SSPA             Social Security Protection Act
 SSPP             Standardized Security Profile Project




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)
                                                                        Appendix B

  Related Office of the Inspector General Reports
    Management Challenge Area, Report Title and                               Report
          Common Identification Number                                        Issued
                         Social Security Number Protection
Congressional Response Report: Monitoring the Use of Employee           September 26, 2006
Verification Programs (A-03-06-36122)

Effectiveness of Decentralized Correspondence Sent to Employers         September 25, 2006
(A-03-06-26096)

Follow-up on Internal Controls over the Processing of Social Security   September 18, 2006
Number Cards (A-15-06-16087)

Prisoners’ Access to Social Security Numbers (A-08-06-16082)            August 23, 2006


The Social Security Administration’s Controls over the Assignment of    August 18, 2006
Nonwork Social Security Numbers (A-04-06-16052)

Beneficiaries Paid Under More than One Social Security Number           August 10, 2006
(A-01-06-26022)

Congressional Response Report: Compliance with Employment               July 20, 2006
Evidence Requirements for F-1 Students (A-08-06-16075)

The Social Security Administration’s Program for Issuing                July 13, 2006
Replacement Social Security Cards to Prisoners (A-08-06-16025)

Self-Employment Income Earnings Suspense File (A-03-05-25038)           June 27, 2006


Employers with the Most Wage Items in the Nonwork Alien File            June 19, 2006
(A-08-05-15138)

Follow-up of the Enumeration at Birth Program (A-08-06-26003)           April 27, 2006


Suspended and Nonwork Wages in the Social Security                      March 13, 2006
Administration’s Payroll (A-03-05-15087)




  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                      B-1
     Management Challenge Area, Report Title and                              Report
           Common Identification Number                                       Issued
Hospitals’ Use and Protection of Social Security Numbers                 January 27, 2006
(A-08-06-16056)

Universities’ Use of Social Security Numbers as Student Identifiers in   November 30, 2005
Region IX (A-09-05-15099)

                       Management of the Disability Process

Controls over Multiple Payments to Attorneys (A-12-06-20016)             September 27, 2006


Ticket to Work – Operations Support Manager for Vocational               September 27, 2006
Rehabilitation Agencies and Employment Networks (A-02-06-16017)

Digital Recording Acquisition Project (A-12-06-26048)                    August 7, 2006


Case Management Procedures at the Hearing Office in Creve Coeur,         August 2, 2006
Missouri (A-07-06-26060)

Case Processing and Management System and Workload                       June 15, 2006
Management (A-12-06-26012)

Impact of Statutory Benefit Continuation on Supplemental Security        May 10, 2006
Income Payments Made During the Appeals Process
(A-07-05-15095)

The Social Security Administration’s Independence Day Assessment         March 24, 2006
(A-07-06-26009)

The Social Security Administration’s Ticket to Work – Ticket             January 24, 2006
Assignments (A-02-05-15125)

The Social Security Administration’s Identification of Special           January 24, 2006
Disability Workload Cases (A-13-05-15028)

Office of Hearings and Appeals Reversal of Disability Denial             January 20, 2006
Decisions Involving Investigative Information from Cooperative
Disability Investigations Units (A-07-05-15091)




  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                       B-2
    Management Challenge Area, Report Title and                                 Report
          Common Identification Number                                          Issued

              Improper Payments and Recovery of Overpayments

Survivors Benefits Paid in Instances When the Social Security             September 26, 2006
Administration Removed the Death Entry from a Primary Wage
Earner’s Record (A-06-06-26020)

Federal Employees’ Compensation Act – Social Security                     September 25, 2006
Administration Employees (A-15-06-26123)

Follow-up Review of Controls over Supplemental Security Income            September 6, 2006
Replacement Checks (A-05-06-26058)

Improperly Paid Lump-Sum Death Benefits (A-08-05-25145)                   August 18, 2006


Benefits Paid to Dually Entitled Title II Beneficiaries (A-01-06-26004)   August 7, 2006


Supplemental Security Income Overpayments to Recipients in Title          June 26, 2006
XIX Institutions (A-08-06-16024)

Match of the Veteran Affairs’ Historical Death File against the Social    June 14, 2006
Security Administration’s Benefit Rolls (A-01-05-35086)

Payments to Surviving Spouses at Retirement Age (A-09-05-15143)           June 5, 2006


Controls over Old-Age, Survivors, and Disability Insurance                May 31, 2006
Replacement Checks (A-02-05-15080)

Survivor Beneficiaries Enumerated after the Wage Earner’s Death           May 23, 2006
(A-06-05-25136)

Payments Resulting from Disability Insurance Actions Processed via        April 20, 2006
the Social Security Administration’s Manual Adjustment, Credit, and
Award Processes (A-04-05-15042)

Congressional Response Report: Overpayments in the Social                 April 3, 2006
Security Administration’s Disability Programs (A-01-04-24065)

The Social Security Administration’s Decisions to Terminate               March 22, 2006
Collection Efforts for Old-Age, Survivors and Disability Insurance
Overpayments (A-13-05-15029)



  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                        B-3
    Management Challenge Area, Report Title and                              Report
          Common Identification Number                                       Issued
The Social Security Administration’s Controls over the Old-Age,         February 1, 2006
Survivors and Disability Insurance Waiver Process (A-13-05-15027)

The Social Security Administration’s Controls over the Write-off of     January 20, 2006
Title XVI Overpayments (A-04-05-15041)

          Internal Control Environment and Performance Measures

The Social Security Administration’s Oversight of the Dell              September 25, 2006
Workstation Blanket Purchase Agreements under General Services
Administration’s Schedule Contract GS-35-F-4076D (A-15-06-16073)

Performance Indicator Audit: 800-Number Access (A-02-06-16108)          September 25, 2006


Performance Indicator Audit: Supplemental Security Income               September 18, 2006
Payment Accuracy (A-15-06-16107)

Performance Indicator Audit: Management Information Systems and         September 18, 2006
Mainframe Protection (A-15-06-16112)

Administrative Costs Claimed by the Indiana Disability Determination    June 12, 2006
Bureau (A-05-05-15135)

MAXIMUS’ Indirect Cost Rates for Fiscal Year 2000 and 2001              June 6, 2006
(A-15-06-16018)

Administrative Costs Claimed by the Virginia Disability Determination   May 19, 2006
Services (A-13-05-15134)

Disposal of Sensitive Documents at the Social Security                  May 10, 2006
Administration (A-15-06-26014)

Administrative Costs Claimed by the Texas Disability Determination      March 23, 2006
Services (A-06-06-16008)

Administrative Costs Claimed by the North Carolina Disability           March 13, 2006
Determination Services (A-04-05-15040)

Disclosure Statement for MAXIMUS’ Health Services Operations            February 17, 2006
Segment Effective October 1, 2002 (A-15-06-26026)

Performance Indicator Audit: Outstanding Debt (A-02-05-15116)           January 27, 2006



  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                      B-4
    Management Challenge Area, Report Title and                            Report
          Common Identification Number                                     Issued
Performance Indicator Audit: Hearings and Appeals Process             January 24, 2006
(A-15-05-15113)

Administrative Costs Claimed by the Oklahoma Disability               January 24, 2006
Determination Services (A-07-05-15102)

Costs Claimed by the Virginia Commonwealth University Contract        December 13, 2005
Number 600-99-38679 (A-15-06-16033)

Performance Indicator Audit: Social Security Numbers and Earnings     November 30, 2005
Processing (A-15-05-15117)

Administrative Costs Claimed by the Louisiana Disability              November 28, 2005
Determination Services (A-06-05-15032)

Administrative Costs Claimed by the Wisconsin Disability              November 22, 2005
Determination Bureau (A-05-05-15013)

Administrative Costs Claimed by the Maine Disability Determination    November 14, 2005
Services (A-01-05-15026)

Oversight of the Fiscal Year 2005 Financial Statement Audit           November 9, 2005
(A-15-05-15130)

Administrative Costs Claimed by the District of Columbia Disability   November 8, 2005
Determination Division for Fiscal Years 2001 and 2002
(A-15-05-30018)

Performance Indicator Audit: Claims Processing (A-15-05-15114)        October 27, 2005


Administrative Costs Claimed by the Arkansas Disability               October 11, 2005
Determination Services (A-06-05-15077)

Performance Indicator Audit: Overall Service Rating                   October 4, 2005
(A-15-05-15118)

Performance Indicator Audit: Continuing Eligibility (A-15-05-15115)   October 4, 2005




  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                 B-5
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued

            Systems Security and Critical Infrastructure Protection

Fiscal Year 2006 Evaluation of the Social Security Administration’s    September 22, 2006
Compliance with the Federal Information Security Management Act
(A-14-06-16084)

Assessing Social Security Administration’s Efforts to Protect          September 22, 2006
Sensitive Information (A-14-07-27068)

The Social Security Administration’s Electronic Mail Security Review   September 18, 2006
(A-14-06-16047)

The Social Security Administration’s Implementation of Earned Value    September 18, 2006
Management Systems (A-14-06-26085)

Physical Security at the Mid-America Program Service Center            September 11, 2006
(A-07-06-16095)

Physical Security at Remote Hearing Sites in Region IX                 August 10, 2006
(A-09-06-16077)

Physical Security at Remote Hearing Sites in Region X                  August 7, 2006
(A-09-06-16078)

Physical Security at the Great Lakes Program Service Center            July 31, 2006
(A-05-06-16079)

Physical Security at the Northeastern Program Service Center           July 13, 2006
(A-02-06-16080)

Physical Security at Remote Hearings Sites in Region VII               June 29, 2006
(A-07-06-16081)

Follow-up Audit: Information System Controls of the Social Security    June 26,2006
Administration’s Representative Payee System (A-14-06-16114)

Implementation of Workers’ Compensation in Title II Redesign           June 15, 2006
Release 3 (A-14-06-16049)

Physical Security at Remote Hearing Sites in Region IV                 June 15, 2006
(A-04-06-16074)




  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                     B-6
    Management Challenge Area, Report Title and                              Report
          Common Identification Number                                       Issued
Physical Security at Remote Hearing Sites in Region III                June 8, 2006
(A-03-06-16044)

Physical Security at Remote Hearing Sites in Region VI                 May 19, 2006
(A-06-06-16076)

Physical Security at Remote Hearing Sites in Region V                  May 18, 2006
(A-05-06-16063)

Physical Security at Remote Hearing Sites in Region II                 May 18, 2006
(A-02-06-16064)

Physical Security at Remote Hearing Sites in Region VIII               April 27, 2006
(A-12-06-16045)

Physical Security at Remote Hearing Sites in Region I                  April 21, 2006
(A-01-06-16067)

Assessing the Application Controls for the Social Security             March 23, 2006
Administration’s Integrated Disability Management System
(A-14-05-15064)

Physical Security at the Southeastern Program Service Center           January 25, 2006
(A-08-06-26011)

Assessment of the Adequacy of the Social Security Administration’s     December 21, 2005
Controls over the Use of Signature Proxies on Applications for
Benefits (A-14-05-15078)

                  Service Delivery and Electronic Government

The Social Security Administration’s Service Delivery to Individuals   September 11, 2006
and Beneficiaries Affected by Hurricanes Katrina and Rita
(A-06-06-26072)

Restitution of Misused Funds to Beneficiaries under Public Law         August 17, 2006
108-203 (A-09-05-15139)

Scott County Community Services Department, A Fee-for-Service          June 5, 2006
Representative Payee for the Social Security Administration
(A-07-06-16040)

Demonstration Project for Non-Attorney Representatives                 June 5, 2006
(A-12-06-16013)


  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                     B-7
    Management Challenge Area, Report Title and                             Report
          Common Identification Number                                      Issued
Beneficiaries in Suspended Payment Status Pending the Selection of    May 18, 2006
a Representative Payee (A-09-05-25020)

Representative Payee Onsite Reviews of State Institutions             April 20, 2006
(A-09-06-26010)

Concurrent Title II and Title XVI Beneficiaries Receiving             April 12, 2006
Representative Payee and Direct Payments (A-09-05-15144)

The Social Security Administration’s Nationwide Asbestos Program      March 23, 2006
(A-13-05-21521)

Representative Payees Receiving Benefits for Children in Foster       January 20, 2006
Care (A-13-05-15047)

The Social Security Administration’s Office of Systems’ Training      October 28, 2005
Program (A-13-05-15031)




  IG Statement on SSA’s Major Management Challenges (A-02-07-17075)                    B-8
                                                                     Appendix C

Office of the Inspector General Contacts

Walter Bayer, Director                        Social Security Number Protection
Kim Byrd, Director

Mark Bailey, Director                         Management of the Disability Process

Paul Davila, Director                         Improper Payments and Recovery of
Judith Oliveira, Director                     Overpayments

Tim Nee, Director                             Internal Control Environment and
Victoria Vetter, Director                     Performance Measures

Kitt Winter, Director                         Systems Security and Critical
                                              Infrastructure Protection

Jim Klein, Director                           Service Delivery and Electronic
Shirley Todd, Director                        Government




IG Statement on SSA’s Major Management Challenges (A-02-07-17075)
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
